<html>
<title> - SAUDI ARABIA'S TROUBLING EDUCATIONAL CURRICULUM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


           SAUDI ARABIA'S TROUBLING EDUCATIONAL CURRICULUM

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2017

                               __________

                           Serial No. 115-46

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
26-312PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f485f406f4c5a5c5b474a435f014c4042">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                
                                ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Nina Shea, director, Center for Religious Freedom, Hudson 
  Institute......................................................     4
David A. Weinberg, Ph.D., senior fellow, Foundation for Defense 
  of Democracies.................................................    14
The Honorable Frank Wolf, distinguished senior fellow, 21st 
  Century Wilberforce Initiative (former U.S. Representative)....    34
Douglas Johnston, Ph.D., president emeritus, International Center 
  for Religion and Diplomacy.....................................    40

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Nina Shea: Prepared statement................................     7
David A. Weinberg, Ph.D.: Prepared statement.....................    16
The Honorable Frank Wolf: Prepared statement.....................    37
Douglas Johnston, Ph.D.: Prepared statement......................    42

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
David A. Weinberg, Ph.D.: Material submitted for the record......    64
The Honorable Frank Wolf: Material submitted for the record......    72

 
            SAUDI ARABIA'S TROUBLING EDUCATIONAL CURRICULUM

                              ----------                              


                        WEDNESDAY, JULY 19, 2017

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
room 2200 Rayburn House Office Building, Hon. Ted Poe (chairman 
of the subcommittee) presiding.
    Mr. Poe. The subcommittee will now come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record, 
subject to the limitation in the rules.
    The Chair will ask that the witnesses come forward and sit 
in your designated positions.
    The Chair has distributed to all members an expert from--
excerpts from current textbooks published by Saudi Arabia's 
Ministry of Education. The Chair would ask and direct that the 
staff furnish this material to all of the witnesses at this 
time.
    Saudi Arabia is an ally in the fight against terrorism. 
Many of the same terrorist organizations that threaten the 
United States also desire to overthrow the Saudi Government and 
break our partnership with the government. It is a key member 
of the Coalition to Fight ISIS, with its pilots flying 
alongside Americans since day one of the campaign in Syria. 
Last year Saudi Arabia adopted strict laws prohibiting 
fundraising for terrorism, jointly designated support networks 
for al-Qaeda and the Taliban.
    However, the Saudis still have much more they need to do at 
home to counter the sources of extremism in the region. The 
battle against terrorism will ultimately have to be fought and 
won on the battlefield of ideas. Saudi Arabia has simply not 
done enough to defeat extremist ideology.
    The Kingdom is playing the role of both arsonist and 
firefighter when it comes to Islamic extremism. Nowhere is this 
more evident than the textbooks Saudi Arabia produces to teach 
young people. For too long, Saudi Arabia's education curriculum 
has inspired the very ideology that is at the root of many 
terrorist organizations like ISIS and al-Qaeda. Saudi textbooks 
are full of anti-Semitism, conspiracy theories, and calls to 
violence that have incited students both at home and across the 
world.
    This poisonous ideology has provided the groundwork for 
generations of extremism. In fact, ISIS adopted official Saudi 
textbooks for its schools in 2015 until that terrorist 
organization could publish its own textbooks. However, its 
export of hateful material through Saudi-funded schools abroad 
has helped spread the toxic ideology to more tolerant and open 
Muslim communities in countries such as Kosovo and Indonesia.
    While the Kingdom has repeatedly pledged to remove 
extremist content from its curriculum, troubling language 
remains in many of the most recent editions of Saudi textbooks. 
In 2006, the Saudis committed to eliminate all passages that 
promoted hatred toward any religion by 2008. Yet even today, 
years later, textbooks include content that discourages 
befriending infidels, claims the goal of Zionism is world 
domination, and encourages fighting any infidel who refuses to 
submit to the supremacy of Islam. This intolerance is 
unacceptable and directly contributes to the widespread 
persecution of religious minorities that plague the Middle 
East.
    Another passage in a current Saudi textbook for middle 
school students states that ``the mujahideen who are doing good 
deeds for the sake of Allah . . . should be given 
transportation, weapons, food, and anything else that they may 
need to continue their jihad.'' Messages such as this undermine 
the Saudi's own counterterrorism efforts. By indoctrinating 
children into the belief that the people of other faiths are 
inferior or that are a threat to Islam, Saudi Arabia is 
ensuring future generations of extremists that will join the 
ranks of terrorist groups.
    This is not to ignore that some positive steps have been 
taken. In recent years, the Kingdom has introduced passages 
that denounce terrorism and encourage dialogue with other 
faiths. But these steps only send mixed messages to easily 
influenced young minds so as long as those more extreme 
messages remain.
    The State Department has previously in other 
administrations, failed to hold Saudi Arabia counterparts to 
past pledges. The Saudi--the State Department has even refused 
to publish reports that shed light on these troubling textbooks 
for fear of embarrassing our Saudi partners, information that 
they have in the possession of the State Department. This is 
troubling.
    While we appreciate Saudi Arabia's contribution to our 
overall counterterrorism efforts in the region, we must hold 
them accountable for their role in fueling the very extremism 
that we are both trying to combat. It is in both of our 
countries' interests in the fight against terrorism. We all 
need to be on the same page. And that is just the way it is.
    I will yield from the gentleman from Massachusetts Mr. 
Keating, the ranking member, for his opening statement.
    Mr. Keating. Thank you, Chairman Poe, for holding this 
hearing. And thank you to our witnesses for being here. Mr. 
Wolf, welcome back.
    We have dedicated a lot of time in this subcommittee with 
talks of countering terrorism and violent extremism. Our last 
hearing addressed that very issue in Europe, in light of the 
many attacks carried out against so many innocent civilians 
across the region.
    We are here to discuss the issue in the context of Saudi 
Arabia's school curriculum, and in particular, reforms that 
have been made to ensure children just going to school are not 
being trained in intolerance and violence but, also 
importantly, to identify what work still must be done. The 
spread of extremist ideologies and instances of individuals 
being inspired to commit acts of terrorism has forced us to 
learn much, much more about the factors that make individuals 
vulnerable to committing acts of violence and taking human 
lives.
    We realize that the messages these individuals are exposed 
to can change the course of their lives and push them to carry 
out heinous crimes of their own in their own communities, and 
in those communities they may have never known, but their 
actions have led to dehumanization, and they actually come to 
believe legitimate targets of violence are their victims.
    These materials that our future generations spend every day 
of the most formative years of their lives learning from are 
therefore very important. Texts that dehumanize and condone 
violence against others simply cannot be tolerated.
    Saudi Arabia is an ally of the United States in fighting 
terrorism. And if there is ever to be a lasting peace and 
security in the Middle East it will require every country in 
the region stepping up and being a leader in eradicating 
extremism and promoting the institutions and rule of law needed 
to ensure that such hatred and violent ideologies are never 
again permitted to take root or to spread.
    Today I hope to learn more from our witnesses about the 
reforms and progress the Kingdom has already made, what 
existing challenges lie before us and, specifically, how we in 
Congress can support progress in this regard. Every year that 
goes by children are being taught intolerance. And that 
compounds the challenges we will face in creating a safer world 
for them to grow up in going forward.
    So, I am looking forward to today's hearing about the steps 
that can be made sure to take these materials molding our 
future generations and bringing them forward, not only in Saudi 
Arabia but in communities around the world. We all have forms 
of intolerance, and we all must work to remove these from our 
own countries. This must be achieved as quickly as possible, 
however. We cannot afford to be patient while intolerance that 
promotes or condones violence in any form is not only shared 
but taught and continues to undermine our collective efforts to 
protect communities from terrorism and violent extremism.
    Again I would like to thank our witnesses and I yield back.
    Mr. Poe. I thank the gentleman from Massachusetts.
    Do any other members wish to be recognized?
    [No response.]
    Mr. Poe. Seeing none, without objection all witnesses' 
prepared statements will be made part of the record. I ask that 
each witness please keep your presentation to no more than 5 
minutes. If you see a red light that appears before you, that 
means stop. And we do have your statements and all members have 
had access to those statements for some time.
    I will introduce each witness and then give them time for 
their opening statements.
    Ms. Nina Shea is the director of the Center for Religious 
Freedom at the Hudson Institute. Previously she was appointed 
by the United States House of Representatives to serve seven 
terms as a commissioner on the U.S. Commission on International 
Religious Freedom.
    Dr. David Weinberg is a senior fellow at the Foundation for 
Defense of Democracies. Prior to joining the FDD, he served as 
Democratic professional staff member at the House Committee on 
Foreign Affairs.
    The Honorable Frank Wolf served, God bless you, 17 terms in 
the United States House of Representatives. He is now a 
distinguished senior fellow at the 21st Century Wilberforce 
Initiative.
    And Dr. Douglas Johnston is the president emeritus and 
founder of the International Center for Religion and Diplomacy. 
Prior to his current position he served as vice president and 
COO of Center for Strategic and International Studies.
    Ms. Shea, we will start with you. You have 5 minutes.

  STATEMENT OF MS. NINA SHEA, DIRECTOR, CENTER FOR RELIGIOUS 
                   FREEDOM, HUDSON INSTITUTE

    Ms. Shea. Thank you, Mr. Chairman and members of the 
committee.
    This is an important hearing. It comes at a critical time 
when Saudi Arabia itself is expressing a new vision for itself 
of reform. And many thoughtful voices after 9/11 made a 
connection between the fact that most of the perpetrators and 
the mastermind behind those attacks were from Saudi Arabia, and 
that their educational system could have a lot to do with what 
happened that day.
    The Saudis--the Saudi King--back in 2003 convened his own 
panel to examine the Saudi textbooks and they confirmed some of 
our worst fears. And they found that the Saudi Kingdom, and I 
am quoting, ``religious studies curriculum encourages violence 
with others and misguides the people into believing that in 
order to safeguard their own religion they must violently 
repress and even physically eliminate the others.''
    For 15 years after 9/11 Saudi Ministry of Education 
textbooks still teach an ideology of hatred and violence 
against Jews, Christians, other Muslims such as Shiites, Sufis 
and Amadiyyas, Hindus, Baha'is, Yezidis, animists, sorcerers, 
and infidels of all stripes, as well as other groups with 
different beliefs. The most objectionable passages are from the 
upper grades' religious textbooks.
    While the Saudi Government has made much of reform in the 
early grades, those religious texts, like those for math or 
English, have not been particularly problematic, though overall 
critical thinking and ideas that conflict with the government-
approved ones are banned.
    Each academic year the Ministry of Education issues a new 
edition of grades 1 through 12's religious textbooks. And they 
are mandatory in all Saudi public schools. Each edition 
reflects some changes in wording, content, and placement. 
Nevertheless, over the past some 10 years, the content, that I 
have been looking at these books, the content has continued to 
retain violent passages and directives.
    Christians, Hindus, and those practicing witchcraft are to 
be fought and killed. The textbooks incite violence against 
polytheists, a category that would of course include all non-
monotheistic religions, but in Saudi Wahhabi teaching can 
include monotheistic religions too, such as Christianity. 
Christians are also considered infidels who must be fought 
unless they have a protection contract with Muslims. Conspiracy 
theories are taught as fact about the Freemasons, the Rotary 
Club, the Lion's Club, the American University of Beirut, and 
so on.
    Dogmatic lessons in Saudi middle and high school textbooks 
include that many--instruct that many Muslims should be killed 
for their beliefs, including blasphemers, Christian converts, 
and those who merely doubt the Prophet's truth, as well as 
Shiites and Sufis, who are condemned as polytheists for praying 
or even seen crying at gravesites.
    No group, however, is more vilified than the Jews. The 
problem is far deeper than that conveyed by the State 
Department's characterization of it as simply stereotypical or 
anti-Semitic language. Repeatedly Jews are demonized, 
dehumanized, and targeted for violence. The textbooks instruct 
that the Zionist aim is Jewish domination of the world and 
controlling its destiny.
    When I was in Saudi Arabia in 2011 with the U.S. Commission 
on International Religious Freedom I had a chance to ask the 
Saudi justice minister at the time why the Protocols of the 
Elders of Zion, an infamously anti-Semitic fabrication from the 
Russian revolution, is included in the textbooks on Hadith, 
which is the traditions of Islam's Prophet Mohammed, where it 
continues to be taught as historical fact. He responded that 
the Protocols are treated as part of Islamic culture because it 
is a book that has long been found in plentiful supply in Saudi 
Arabia and that it was a book that his father had in his house.
    In the interests of time I am going to refer to my written 
testimony for specific examples. You have already cited a few.
    But just to say that apostates are singled out for 
punishment in this life, death unless they repent within 3 
days.
    Christians, again, are considered polytheists, and 
polytheists are to be--is a reason to fight those who practice 
it and to commit jihad against it, is another quote from these 
books.
    Homosexuals, the punishment is death.
    Jihad is extolled and defined. Its first definition is 
asserting effort in fighting unbelievers and tyrants.
    And there are many more examples. And these are posted on 
the Internet and shipped worldwide. And they have been linked 
by our counterterrorism officials to growing extremism.
    The Saudis, the one point I would like to make is that the 
Saudis themselves have admitted that the textbooks need reform. 
They do not deny it. Any Saudi that I talked to has agreed, 
including the Saudi Minister of Education in 2011, but they 
have not really finished it. They have never finished it. And 
they have a long history of broken promises where they have 
said that they did; either they did clean them up, as our 
Ambassador to Washington, former Ambassador Turki al-Faisal 
told us, or that the reform is just around the corner and that 
it will be completed in 2 years or 5 years or 10 years. And 
over this period it has not happened.
    The government--U.S. Government--has failed to verify this. 
And has even, as you mentioned, covered it up.
    So, I will conclude my testimony there and urge you to 
mandate that Congress, mandate--that Congress mandate the State 
Department review the textbooks and highlight and detail the 
troublesome portions of it. And to, even to make defense 
contracts with Saudi Arabia contingent on the cleanup of these 
textbooks and so that they are not in danger of hurting or 
killing any American that might be a member of the groups that 
are singled out for violence and dehumanization in these 
reports.
    Thank you.
    [The prepared statement of Ms. Shea follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Ms. Shea.
    Dr. Weinberg.

     STATEMENT OF DAVID A. WEINBERG, PH.D., SENIOR FELLOW, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Weinberg. Chairman Poe, Ranking Member Keating, and 
distinguished members of the subcommittee, thank you on behalf 
of the Foundation for Defense of Democracies for having me here 
today. I will deliver an abridged version of my written 
testimony.
    As I explain in that text, encouraging Saudi Arabia to 
remove incitement from its government-published textbooks for 
its public education system is not just the right thing to do, 
it is also a national security issue. Fighting terrorists 
militarily can only achieve so much if Saudi textbooks and 
other sources of incitement continue to provide fertile 
intellectual ground for violent extremism.
    This past May I published a long list of intolerant 
statements in Saudi textbooks from the most current school 
year, which I will draw from extensively here. I have included 
all of these passages in their original Arabic as an appendix 
to my written testimony.
    I found that Saudi textbooks still recommend killing people 
for many acts that U.S. law would characterize as personal 
choices. That included adultery, anal sex, converting from 
Islam, or purported acts of sorcery.
    The textbooks are also rife with anti-Christian and 
particularly anti-Semitic inciting, often framed as anti-
Zionism. One book called Christianity an invalid, perverted 
religion. Another accused Zionism of plotting a global Jewish 
government. And a third called Zionism an octopus that it 
accused, falsely, of trying to destroy the Al Aqsa Mosque and 
the entire Islamic creed.
    A fourth book taught that befriending infidels is 
forbidden, citing a Quranic verse that says not to take 
Christians or Jews as allies. That textbook called such 
infidels enemies of Muslims and of God, and taught that Muslims 
must abhor them, quite literally teaching hatred.
    These are all examples from current textbooks used in the 
2016 to 2017 Saudi school year.
    According to a forthcoming report by Human Rights Watch, 
the textbooks also repeatedly refer to well-known stereotypes 
of Shiite or Sufi Muslim rituals as horrendous examples of 
polytheism. This is particularly important, because a passage I 
found in a current Saudi textbook called for fighting such 
polytheists except under a handful of extenuating 
circumstances.
    That book also teaches that there are four types of 
infidels, and that if a non-believer doesn't happen to fit into 
one of the first three categories--diplomats, peoples with whom 
Muslims have a non-aggression treaty, or people who agree to 
pay a special tax associated with second class status--then 
they are combatant whom it says Muslims are commanded to fight.
    Saudi Arabia has made some positive changes to its 
textbooks in recent years but not enough. A few passages 
condemning terrorism or racism and permitting kind treatment to 
peaceful non-believers have been added. Direct calls to 
violence or hatred are somewhat less common.
    By the way, I would like to share a little bit of news with 
you today. Seventeen minutes after this hearing was scheduled 
to start the Saudi Embassy posted on Twitter that, ``The 
Ministry of Education has finalized a round of textbook 
revisions in line with the objectives of the national 
transformation plan.'' This is particularly puzzling because in 
an interview with the Wall Street Journal earlier this year 
Saudi Arabia's education minister seemed to suggest that the 
broader change involving incitement and other issues in its 
curriculum would have to wait until 3 years, up to 3 years from 
now when the Kingdom would move to tablets in the classroom.
    Saudi officials routinely oversell the success and ambition 
of their efforts to reform these books to date. In 2005 Saudi 
Arabia said it had removed all the problematic passages from 
its textbooks. When Nina Shea proved that that was incorrect, 
the Saudis assured the U.S. that all intolerant passages would 
be removed by 2008. They missed that deadline, as well as 
others they had pledged for 2013, 2014, 2015, and 2016. Even 
some of the textbooks they claim to have fixed in recent years 
still contain incitement.
    U.S. policy on this issue has not been up to the task. For 
example, the State Department issued the country reports on 
counterterrorism today. And while there are several lines in 
there about the Saudi curriculum, there is only half, less than 
a full sentence on what incitement still remains.
    But there is much that Congress can do to help. The U.S. 
Commission on International Religious Freedom called on the 
executive branch this year to ``undertake and make public an 
annual assessment'' of Saudi textbooks to ``determine if 
passages that teach religious intolerance had been removed.'' 
Congress should help by passing legislation that requires the 
administration to issue such a yearly report, and allocates the 
resources of it to do so, no later than 90 days after the start 
of the Saudi school year so such findings are actually still 
valid for diplomats. And such a report should quote all such 
passages that could be seen as encouraging violence or 
intolerance for public scrutiny.
    There are a number of other recommendations that I include 
in my written testimony. But in the interests of time, I will 
leave off there.
    [The prepared statement of Mr. Weinberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Dr. Weinberg.
    The Chair will now recognize Congressman Wolf.

  STATEMENT OF THE HONORABLE FRANK WOLF, DISTINGUISHED SENIOR 
   FELLOW, 21ST CENTURY WILBERFORCE INITIATIVE (FORMER U.S. 
                        REPRESENTATIVE)

    Mr. Wolf. Thank you, Mr. Chairman and members of the 
committee.
    The issue of Saudi educational curriculum as a means of 
promoting intolerance and inspiring terrorism is not a new one. 
This topic hit close to home in 2003, when Ahmed Omar Abu Ali 
was arrested while in class at the Islamic University of Medina 
for an attempted plot to assassinate President Bush. Before 
attending the University of Medina, Mr. Abu Ali attended and 
was a valedictorian at a high school which was located here in 
northern Virginia, the Islamic Saudi Academy. Mr. Abu Ali was 
ultimately sentenced to life in prison and is currently serving 
out his sentence in a supermax in Colorado.
    The reason I would like to highlight this particular case 
in particular is due to the fact that concerns were raised 
regarding the educational material being used by the Islamic 
Saudi Academy over and over. Not only was the school funded by 
the Saudi Arabian Embassy, which meant it fell under the Saudi 
Ministry of Education, but the Saudi Ambassador to Washington 
led the board of directors. He literally led the school.
    In 2007 when asked by the United States Commission on 
International Religious Freedom to make textbooks publicly 
available, the school refused to comply. We got copies from a 
professor that gave us one on the side. One letter from USCIRF 
on the issue stated, ``Based on past documentation, significant 
concerns remain about whether the Saudi textbooks used at the 
ISA Academy explicitly . . . hate, intolerance and human rights 
violations, and in some cases violence, which may adversely 
affect the interests of the United States.''
    In 2008, I wrote Secretary Rice on five different occasions 
regarding the concerns held by the Commission regarding the 
content of the textbooks. At that time I requested a meeting be 
convened between relevant State Department officials, USCIRF 
representatives, and expert analysts commissioned by USCIRF to 
translate the textbooks in order to determine what was being 
taught by the Academy. Such meeting never took place.
    Generally, the State Department has been weak on this issue 
in both Republican and in Democratic administrations.
    During this time, USCIRF was finally able to obtain copies 
of some of the textbooks being used by the Islamic Saudi 
Academy. After a thorough analysis, the Commission concluded 
that the textbooks contained very troubling passages that did 
not conform to international human rights standards, including 
vilification of those who adhere to Christianity, Judaism, 
Baha'i'ism, Ahmadism, and Shia Islam and others. I have 
submitted for the record some of those statements.
    And in 2009 I sent a letter, again, to Secretary of State 
Clinton, urging the State Department monitor and report on the 
textbooks published by the Saudi Government. In that letter I 
acknowledged, ``To date, we have had only vague assurances on 
the part of the State Department and the school that the 
curriculum has been reformed. But these assurances are 
insufficient, particularly when they are utterly at odds with 
USCIRF's findings, and may be indicative of wider problems, 
namely, the status of Saudi commitments made in 2006 to conduct 
a comprehensive revision of textbooks and educational curricula 
to weed out . . .''
    While it is impossible to say that Mr. Abu Ali was directly 
radicalized by the textbooks used at the Islamic Saudi Academy, 
the use of the books that promote religious discrimination and 
the justification of violence toward non-believers cannot be 
tolerated, certainly not in Fairfax County, not in Virginia, 
not in America, but quite frankly, anywhere around the world.
    Consider that if this is the academy's curriculum in the 
United States, just imagine how prolific the problem has been 
across Saudi-affiliated academies, funded programs in other 
countries around the world, especially in some countries in the 
Middle East.
    While the Ahmed Omar Abu Ali case is now almost a decade 
old, Saudi Arabia has continued to promote and export radical 
Wahhabism. In the wake of the Orlando shooting just last year, 
Democratic Presidential nominee Hillary Clinton stated, ``It is 
long past the time for the Saudis, the Qataris and the Kuwaitis 
and others to stop their citizens from funding extremist 
organizations. And they should stop,'' she said, ``supporting 
radical schools and mosques around the world that have set too 
many young people on the path toward extremism.''
    And, unfortunately, by funding top American university 
research centers, the Saudi Government has been able to 
minimize voices of those in academia who you would have thought 
otherwise would have had the best means for researching the 
effects of radical Wahhabism.
    While there are many concerns regarding the influence of 
Saudi Arabia, more specifically radical Wahhabism, on countries 
around the world, it would be remiss not to acknowledge that 
very recently some small improvements have been made to the 
educational material. In the latest report by USCIRF they said, 
``In February 2017 Saudi officials stated that the final stage 
of revisions to high school texts was underway. During its 
visit, USCIRF obtained some textbooks currently in use and 
found some intolerant content remained in high school texts, 
though at a reduced level.''
    They go on to explain while there has been progress in 
terms, there is still concern that some of the teachers may be 
promoting a more radicalized version of Islam.
    Some recommendations: One, the USCIRF has some very good 
recommendations. Undertake and make public and annual 
assessment.
    I believe you have to put this in the legislation. If you 
just let the State Department or the American Embassy in Saudi 
Arabia, they will always find a reason not to do it. So I think 
it needs to be mandated that the relevant Ministry of Education 
textbooks determine the passages that teach religious 
intolerance have been removed.
    Secondly, press the Saudi Government to denounce publicly 
the continued use around the world of older versions of Saudi 
textbooks and other materials that promote hatred and 
intolerance. And make every attempt to retrieve and buy back 
previously distributed textbooks that contain intolerance.
    You know, even in America's schools sometimes you're in a 
class there will be a textbook that is 10, 15 years old. These 
are still in schools around, around the world.
    And keep in mind, lastly, the Saudis funded almost all of 
the madrasas that were up on the Afghan-Pakistan border that 
helped lead to what took place in the Taliban. Mullah Omar, the 
head of the Taliban, was a graduate of a Saudi-funded academy. 
The issue needs more work.
    And I want to thank the subcommittee and the members 
because I kind of thought for a while this issue was kind of 
forgotten about. Mandate it and put it in. If you take the 
pressure off the Saudis they will slip back in and this will 
come in. You keep the pressure on and you can make a tremendous 
difference.
    I thank you for the hearing.
    [The prepared statement of Mr. Wolf follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Congressman Wolf.
    Dr. Johnston.

   STATEMENT OF DOUGLAS JOHNSTON, PH.D., PRESIDENT EMERITUS, 
        INTERNATIONAL CENTER FOR RELIGION AND DIPLOMACY

    Mr. Johnston. Yes, Mr. Chairman, I would like to thank you 
for the honor of presenting to your committee some of the work 
our center has been doing to try to help facilitate educational 
reform in the Kingdom of Saudi Arabia. We have a written 
testimony that covers that comprehensively. I will just touch 
on some of the highlights.
    Before I do, though, I would like to just take 1 second to 
honor the other witnesses here. Each is a champion of human 
rights and religious freedom in their own right, and it is an 
honor to be with them.
    Our task, which I consider complementary to their own, has 
been to take action to address the problem. And in 2011, we 
received a grant from the State Department to develop 
recommendations that would help facilitate reform efforts that 
were already underway in the Kingdom. Toward this end, we 
assessed all the textbooks for discriminatory content. And we 
also tried to determine global dispersion of those textbooks.
    It was a--from the start our approach was one of seeking to 
be balanced, giving them credit for whatever progress had been 
made, not only in that but in their deradicalization program, 
but to be very unsparing in our detail of what yet remained to 
be done. And there we completed a report, very comprehensive, 
included 99 textbooks. I could go into great length on that, 
but just suffice it to say that this report is just replete 
with examples of the kinds of problems that have been cited 
here with the other witnesses.
    There is, at that point in time, this is 2011, sprinkled 
throughout you would find direct license given for violent 
behavior toward others who do not subscribe to that similar 
brand of Islam. You would also find direct license for such 
things as desecrating the tombs of the Sufi saints in Timbuktu, 
which the extremists did before the French kicked them out. So, 
lots of problems.
    There were not only problems in the textbooks as a whole, 
but even in the six grades that had already been thoroughly 
revised we did find problems.
    So, one of the things I would just point out, though, in 
terms of looking at these things, I think it is important to 
try to avoid using a western lens as we do so. By that I mean 
what we try to do is hold their feet to the fire by comparing 
what is in those textbooks to what is in the Holy Quran with 
respect to that same subject area, what is in the Cairo 
Declaration of Human Rights in Islam with respect to that. In 
all cases, the Saudi textbooks were much more conservative than 
the sources I just mentioned.
    So, that is, that is a very important piece is just 
understanding exactly where, how much freedom the Government of 
Saudi Arabia has to really maneuver. There are so many wild 
cards in the mix. There are charities through which textbooks 
are distributed. There are maverick members of the royal 
family. There are deep-pocketed Saudis who are not members of 
the royal family. Lots of people with lots of agendas.
    And one of the things that is also a bit of a constraint is 
the fact that the original pact between the monarchy and the 
Salafi Ulema called for education belongs to the religious 
establishment. So one of the things that the Saudis were having 
to do is to finesse that aspect, that obligation. They also 
need to worry about the credibility that they maintain within 
Islam itself as custodian of the two holiest sites. So this is, 
this is not to forgive any of the textbook content, this is to 
just explain why sometimes it may take a little bit longer than 
we would like.
    We established a comprehensive baseline for future 
analysis. And we felt that the progress that the Saudis were 
making was credible enough that we should probably keep the 
report private, not release it to the public. Our concern was 
that western critics seizing upon the offensive passages that 
still remain might just shut down the whole process as a 
defensive backlash sets in and the conservatives move in. We 
have seen this time and again in different situations in the 
Islamic world.
    So, we spent the next 3 years implementing some of the 
recommendations that we had come forward with.
    Now, just to bring it right up to the present, we are in 
another month we are going to be starting a new effort to look 
at the textbooks of the high school grades which had not been 
revised the last time we looked at them. We are also going to 
take an in-depth look at three countries on how the Saudi 
educational materials are affecting the religious and social. 
What is that impact?
    And I will say this, right now the Saudis claim to have 
just completed that process, reform process that started way 
back in 2007. And they realize, however, that they still have 
problems. Many of those have been mentioned here right now. And 
what they are planning to do is tackle it from two aspects.
    One, is by 2020 to have developed a set of curriculum 
standards. They have never had curriculum standards before. And 
this is part of their national plan on educational reform which 
was articulated in 2014, $22 billion behind it. It is very 
serious money. That money has stayed protected even during 
their budget shortfalls. And by these curriculum standards they 
will then revise wholesale the content in all of the textbooks.
    In the meantime, on a more urgent basis, they are going to 
be looking at the current revised textbooks and within--
starting within 3 months they will start making changes on a 
priority basis. And they will have these completed, according 
to them, by the next school year, 2018 to 2019. And there is so 
much going on right now. They are going to--in 3 years they 
will have converted from textbooks to tablet computers. So 
there is a lot of change underway.
    I believe that the commitment is real. And they certainly 
do understand the problem.
    Thank you.
    [The prepared statement of Mr. Johnston follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Dr. Johnston. The Chair recognizes 
himself for some questions.
    I want to be clear that when we are dealing with Saudi 
Arabia it is not all or nothing. Like I said earlier, they are 
the arsonists but they are also the firefighters when it comes 
to terrorism. That is what makes this very troubling, this 
whole issue.
    And, Ms. Shea, let me start with you. If I understand 
correctly, Saudi Arabia agreed in 2006 that they would fix this 
problem and they would have it all fixed by 2008. Is that 
correct?
    Ms. Shea. Yes, Mr. Chairman. They----
    Mr. Poe. Okay. Reclaiming my time because I only have a few 
minutes.
    So here it is now 9 years later and it is still not fixed, 
maybe some progress, but it is the issue that they promised in 
2006 to fix the textbooks has not come about. Is that right?
    Ms. Shea. Yes, that is correct.
    Mr. Poe. So that is nine grades. That is almost a 
generation of students that they furnished the textbooks to 
that are still receiving this, in my opinion, violation of 
human rights.
    Saudi Arabian schools teach religion and it is mandatory 
that all students go to these religious classes. Is that 
correct?
    Ms. Shea. Yes.
    Mr. Poe. And that is where these textbooks are used?
    Ms. Shea. Yes.
    Mr. Poe. And they are not only used in Saudi Arabia but 
they are used in other places in the world, including in the 
United States, as Congressman Wolf has stated; is that right?
    Ms. Shea. They have about 20 schools that they directly 
run. And then they are spread--for example, Dr. Johnston's 
report said that there were 150 schools that Saudi Arabia has 
established in Burkina Faso alone. So that gives you some, you 
know, some idea of the scale. It is all over the world, all 
continents and where there are people, where there are Muslim 
communities. And they are--not every one is receiving Saudi 
textbooks, but many, many are.
    Mr. Poe. And some say that the radicalization in Kosovo and 
Indonesia are a result of these textbooks being in these 
schools. Are you aware of that?
    Ms. Shea. Yes, I am. I hear it all the time.
    Mr. Poe. Congressman Wolf.
    Mr. Wolf. Yes.
    Mr. Poe. Dr. Johnston, I know the State Department 
contracted with your group to study this issue, gave a grant, 
American taxpayer money, a grant for you all to study the 
issue. You studied it. You have got a report there in your 
hand. But the State Department still to this day refuses to 
release to the public that report. Is that correct?
    Mr. Johnston. No, that is not true, sir.
    Mr. Poe. So they have, they have released the report?
    Mr. Johnston. They have. But not, not on their own doing.
    Mr. Poe. It has been released because somebody leaked the 
report.
    Mr. Johnston. No. It was because the New York Times used 
the Freedom of Information Act to get a copy of the report.
    Mr. Poe. So it has been. The public does have access to 
your entire report?
    Mr. Johnston. Absolutely.
    Mr. Poe. All right. Thank you. I did not know that.
    So, Congressman Wolf, let me ask you. You mentioned a few 
things that must be done. This has been going on for a good 
number of years. And where we are today, I think the United 
States--this is my opinion--doesn't want to endanger the 
sensitivities of our relationship with our Saudi allies. What 
would--how would you characterize this relationship and the 
demanding that we--that they change their textbooks?
    Mr. Wolf. Well, it goes up and down. And during the area of 
oil crisis nobody wanted to offend the Saudis. America is fast 
becoming basically energy independent.
    I think what you are doing with the hearing today by 
bringing the attention.
    Two, there ought to be the new U.S. Ambassador for 
Religious Freedom, the person whose name I have heard is a very 
outstanding person who will be very good on this issue, the 
subcommittee should meet with that person.
    Thirdly, you ought to have questions going over to the 
Senate Foreign Affairs Committee. When they send the name up of 
the new Ambassador there will be very tough questions from both 
sides of the aisle--this is not a political issue, if you 
will--aggressively putting him on record or her on record, 
whoever it is, that they will speak out.
    Lastly, when he or she is confirmed this subcommittee 
ought, ought to meet with them.
    And I think the more you pressure and do it publicly, in a 
very respectful way, you have to be careful, though, because 
the Saudis put a lot of money in different universities. They 
also hire prominent law firms in town. I couldn't believe, 3 
weeks ago a prominent law firm was hired to represent Bashir, 
an indicted war criminal, indicted for genocide, responsible 
for the death of 200,000 to 300,000 people in Darfur, bombing 
people in the Nuba Mountains, and yet a law firm, prominent law 
firm working for him. So you have to be careful that there 
isn't pressure.
    But what you have done today following up with it, I don't 
think the State Department will aggressively do it unless the 
Congress pushes them.
    Mr. Poe. Last question. Dr. Weinberg, you mentioned that 17 
minutes into this hearing, that was a public notice that we 
were having this hearing, the Saudi Arabians did something. 
What did they do?
    Mr. Weinberg. They, they announced on social media that a 
new round of curriculum revisions had been completed which, 
again, needs to be not a justification for letting scrutiny off 
but a justification for added scrutiny to see if they have 
actually delivered on what they pledged.
    If I could just add my voice to what the Honorable Mr. Wolf 
said about envoys. In addition to encouraging the 
administration to nominate a qualified individual for the 
congressionally-mandated post of Ambassador-at-Large for 
International Religious Freedom, there are four other important 
positions that are laying vacant on this issue right now.
    There is currently no nominee, at least as of last I 
checked 2 days ago, for a U.S. Ambassador to Saudi Arabia. It 
should be somebody with real experience in the relationship and 
not just business experience.
    Additionally, there is no nominee for the Special 
Representative of the State Department to Muslim Communities 
Abroad, a crucial vacancy.
    Additionally, there is still no nominee, no nominee for the 
Anti-Semitism Envoy at the State Department. And the Secretary 
of State even suggested that such a nominee might be 
counterproductive for addressing anti-Semitism by taking it out 
of the priorities of the State Department, which I think is a 
deeply counterproductive perspective.
    And then, lastly, there is the position of Ambassador for--
or Special Envoy for Religious Freedom of Minorities in the 
Broader Middle East, a position that is mandated by Congress. 
There is somebody serving in this capacity but not with the 
level of seniority that Congress has mandated.
    So those are all areas where you all can have an important 
voice.
    Mr. Poe. Four positions, four witnesses, I think maybe we 
can solve that problem right here.
    I yield to the gentleman from Massachusetts, the ranking 
member Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Dr. Johnston, you mentioned that the Center is moving 
forward and they are looking at three countries to see what the 
effect, do an in-depth examination of the religious and social 
impact of Saudi educational materials in those countries. Can 
you tell us and expand on what countries were chosen and what 
reason were those countries included in this study?
    Mr. Johnston. They have not been chosen. We are currently 
examining the feasibility of securing a memorandum of 
understanding with selected governments that would pass this 
test. These are going to be three countries of strategic 
consequence. They will be drawn from Southeast Asia, the Middle 
East, and Europe.
    Mr. Keating. Could you share any timetable that you might 
have?
    Mr. Johnston. I would say that we would, we would have this 
firmly underway within 2 months.
    I would say, too, and I am sorry that time didn't permit 
this earlier, but in response to our study on the global 
impact, the Saudis actually put out a request to the Cultural 
Attaches of every one of their Embassies around the world 
encouraging them to, directing them to retrieve any old 
textbooks that might be in use within their respective 
geographic areas and to replace them with new.
    The problem with that, of course, is the new still have 
problems. But this is to just show you that they are not deaf 
to the issue of this stuff going worldwide. And one of the 
things we are trying to do is just to impart a sense of 
ownership on all of that. And I think they are stepping up to 
the plate.
    Mr. Keating. Well, 9 years, they might be not be deaf but 
they are slow of hearing I would say in a sense.
    Mr. Johnston. It is glacial.
    Mr. Keating. Certainly.
    And one of the concerns, too, when we are looking at this 
overall problem and the expansion of these materials, I think a 
lot rests on the control that the home country has on its 
education curriculum. I think Ms. Shea mentioned Burkina Faso 
and Mali.
    And how much are countries like that reliant on these Saudi 
materials? Financially, what is the control? And this should 
seem to me an opportunity for the United States to try and deal 
with this directly. What opportunities could we have in those 
countries if they are reliant on money and resources for 
curriculum from Saudi Arabia, which we are learning today still 
contains material that is not, not appropriate, to say the 
least?
    So, tell us about what your views are of the impact of 
those home-controlled countries on the curriculum?
    Ms. Shea. Yes, it is very determinant. I even spoke to an 
imam from a mosque in the United States about--who had Saudi 
textbooks in his library that he made available in the school. 
And he has since removed it he said. But he, he said that the 
reason why is that he didn't--he was working with an immigrant 
community that was impoverished, and that they do not have a 
school, they do not have textbooks, they do not have religious 
textbooks. So they turn to the country in the world with the 
deep pockets for such things. So they----
    Mr. Keating. Could I interrupt to say that given the U.S. 
interest here, isn't that a priority for our country perhaps? 
Is there an opportunity? Or would they not be receptive to the 
United States?
    Ms. Shea. Well, it is going to be very tricky. The United 
States cannot be funding religious things like that.
    Mr. Keating. How about through NGOs or funding through NGOs 
or anything like this?
    Ms. Shea. Well, I think the solution, again, is to force 
the--or press the Saudis to clean up their textbooks because 
they are going to be online. And----
    Mr. Keating. Well, if they are, if the Saudis are so 
sincere about this, what are they doing currently to the 
current generation and the prior generations that have been so 
indoctrinated in this material? Have they done anything in a 
remedial nature to deal with this whatsoever?
    Mr. Johnston. Well, one of the things they did in their 
deradicalization program is that they fired 3,000 imams. They 
retrained 20,000 others out of a total pool of 75,000 imams. So 
that is, that is taking care of it within their own borders.
    Beyond that, the question that you asked where they have 
paid for the mosques and all the rest of it, you find in most 
countries they have significant control over what is taking 
place in the schools.
    Again, I would just point out there is an important caveat 
here. That may not be the Government of Saudi Arabia very 
easily it seems. You know, peel back the onion, it is very 
difficult to follow.
    Mr. Keating. If I could----
    Mr. Johnston. But, but a more----
    Mr. Keating [continuing]. Just because my time is about to 
expire, if I could just--then you can have your chance with the 
committee to address that, a little bit of an expansion here.
    Congressman Wolf mentioned some of the things directly he 
thought. He gave specifics about what the U.S. could do. Just 
in a very short summary, if any of you have specific, specific 
ideas I would like to hear them.
    Mr. Weinberg. So on the topic of exportation that we were 
just discussing, one thing that has always plagued this issue, 
and this was a challenge for that New York Times investigation 
that the chairman was discussing, I spoke with some of the 
reporters who were involved in that and related efforts at the 
Times, and one of the challenges when it comes to studying this 
exportation issue is there is often only anecdotal data or it 
is, you know, very, very vague and impressionistic.
    So, one of the things that the U.S. Government can do to 
really play an important role here is to use all the assets of 
the U.S. Government on this, and in particular, the 
intelligence community. The easiest thing, or the most 
important thing that can be done in terms of informing this 
debate would simply be a directive from Congress to the 
intelligence community to monitor the exportation of incitement 
from Saudi Arabia, including but not limited to textbooks, and 
to direct them to report on this.
    Additionally, Congress can call for rebooting the U.S.-
Saudi strategic dialogue with a track to include issues related 
to incitement. And that rebooting, in a general sense, is 
something that the new crown prince of Saudi Arabia is reported 
to support.
    And then, additionally, Congress can publicly and privately 
raise this issue, as well as urging the President to do so, and 
to issue a formal directive to U.S. agencies and cabinet 
members to do so as well.
    Mr. Keating. Thank you, Mr. Weinberg. In respect to my 
other committee members, if you can do that in writing----
    Mr. Johnston. Do you want any more ideas?
    Mr. Keating [continuing]. I think that would be helpful.
    We might, but I have to be respectful of the other 
committee members, unless we have a second round. But anything 
like that I think the committee would appreciate in writing.
    And, also, you know the committee is aware perhaps that 
there is classified material along the lines that Dr. Weinberg 
suggested that they may want to review, something that I think 
the committee might be interested in doing.
    And I yield back, Mr. Chairman.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Perry.
    Mr. Perry. Thanks, Mr. Chairman. Thanks to the panel here.
    Mr. Weinberg, you mentioned a report in your testimony, or 
maybe in questions, I can't remember, but what is the report 
going to do? What is it going to do to Saudi Arabia and what is 
it--said report, so to speak, what would it do to the United 
States?
    Mr. Weinberg. So, one of the challenges of this issue to 
date is something that Ms. Shea addresses in her written 
testimony, which is the tendency of the State Department, 
because its priority is maintaining constructive relations with 
Saudi Arabia and advancing a range of other issues in the 
bilateral relationship such that they usually don't want to 
rock the boat, that a long-term strategic priority for the 
United States like textbooks doesn't get raised in the 
immediate term when it needs to get raised, and it gets kicked 
down the road indefinitely.
    So as a result, State Department language on this issue 
every year in their International Religious Freedom Report, in 
their Human Rights Report, as well as in their country reports 
on terrorism such as the one that came out today, basically 
have a throw-away line or two about some incitement still 
remaining, without providing any specific examples typically, 
or at least without providing direct quotations. And so, and 
well----
    Mr. Perry. Is this not like widely known? Like, doesn't the 
whole world, like, we all know this; right? Everybody knows, 
everybody in the room knows this. With all due respect, I just, 
look, the report might be nice but I don't, I don't see it 
moving the ball quite honestly.
    Mr. Weinberg. Yes.
    Mr. Perry. I mean, maybe in the panoply of everything you 
are going to do that, you have to add that.
    Mr. Weinberg. If I could play devil's advocate for a 
moment. So, part of the challenge with this issue has been the 
absence of current data when people actually have their 
conversations with Saudi officials.
    So, for example, the important study that Mr. Johnston's 
institute did, its results were not raised with Saudi officials 
by them or by the U.S. Government to the best of our 
knowledge----
    Mr. Perry. But that is the, that is----
    Mr. Weinberg [continuing]. Until the books were already 
obsolete.
    Mr. Perry. That is an issue of will, not of information. I 
mean, I have got textbook experts right in front--excerpts 
right in front of me here, so.
    Mr. Weinberg. But the reason those excerpts were done, 
until May most of those excerpts were not actually in the 
public sphere because nobody had gotten access to the books and 
sat down and read them and transcribed them.
    Mr. Perry. You are telling me that we legitimately----
    Mr. Weinberg. So for several years we didn't know.
    Mr. Perry. And I am not trying to be bellicose or 
difficult----
    Mr. Weinberg. Yeah.
    Mr. Perry [continuing]. But you are telling me we had no 
physical evidence like this----
    Mr. Weinberg. Right.
    Mr. Perry [continuing]. Until May 2017?
    Mr. Weinberg. For this academic year, yes.
    Mr. Perry. Oh, for this academic year. But we have for 
every other academic year back to 1970, 1980 or something.
    Mr. Weinberg. But just, just like that tweet from the Saudi 
Embassy that we were discussing, the Saudi Government every 
year claims that this has, this has been seriously worked over 
and so the stuff that people are concerned about is old news. 
And so it is important for the United States Government----
    Mr. Perry. Well, of course there is propaganda. I mean, you 
can listen to Russia T.V. and Al Jazeera as well if you want to 
believe all that stuff. But I mean, I hope that Americans are a 
little brighter than that.
    Let me ask anybody this: Regarding incitement, because I 
just don't feel like we ever go far enough, and I am not sure 
even the suggestions I have heard go far enough to suit me--
that is just me--but does anybody know whether incitement, you 
know, when you talk about the penalty for the adulterer who has 
previously consummated a marriage is stoning to death, that is 
in the book; or apostasy, you know, the penalty for apostasy is 
killing, that is, you know, that is in the textbook; you know, 
I don't know if this is incitement in the classic example or 
case. And I don't know if it meets the Brandenburg test.
    Does anybody know if it does? Have we ever tried to? I 
mean, nobody wants to get into the suppression of free speech, 
but at some point free speech crosses over the line into 
incitement. Now, I guess the test is intended, likely, and 
imminent, and which the courts at some point decided what 
imminent was. Does anybody know whether that has ever been 
challenged? Have we ever taken a shot at it? Does the 
government have an interest?
    Okay. Yes, ma'am.
    Ms. Shea. Well, I think, I think we have done that in the 
case of Americans who have posted such death threats against, 
like for example, the South Park cartoonist who did an 
irreverent cartoon of----
    Mr. Perry. But I am talking about the textbooks. Is this, 
is this,----
    Ms. Shea. But no, I mean I don't see how that----
    Mr. Perry [continuing]. Is this considered incitement?
    Ms. Shea. I don't see how that could be, I don't see how 
there is--there is diplomatic immunity--I don't see how the 
Saudi textbook.
    Mr. Perry. The textbook has diplomatic immunity?
    Ms. Shea. Well, they are published by the Government of 
Saudi Arabia who would be held responsible. The Ministry of 
Education of Saudi Arabia is the, the printer. And the 
Government of Saudi Arabia is the sponsor.
    Mr. Perry. So if the Government of Saudi Arabia publishes 
information that says that every, every citizen that has an 
affiliation with Saudi Arabia living in the United States 
should kill the next American they see, there is nothing we can 
do about that? Like we can't, we can't have that removed from 
the shelf because it is the Government of Saudi Arabia?
    Ms. Shea. Well, that is the--I mean, we have pressed people 
who actually carried out the crime. But it, you know----
    Mr. Perry. But incitement, there have been prosecutions for 
incitement in advance of the crime based on incitement; right? 
The question is has, to anybody's knowledge has anybody in the 
United States on behalf of the United States pursued that 
avenue regarding the textbooks and the passages therein as 
incitement?
    Ms. Shea. Some of the 9/11 victims' families may have been 
suing Saudi Arabia for reparations. But, but I don't know what 
the theory of their case was, whether it was the incitement.
    Mr. Perry. It seems like maybe either the answer is no or 
unknown. So maybe that is a place we can go into further.
    Mr. Chairman, I yield back.
    Mr. Poe. I thank the gentleman from Pennsylvania.
    The Chair will have one more round of 2 minutes per member. 
I will yield my time initially to the ranking member Mr. 
Keating from Massachusetts for his questions.
    Mr. Keating. Mr. Weinberg, you said one of the things that 
we can all do is speak up more and be consistent in doing it at 
every level. Taking into consideration what Congressman Wolf 
said, you know, there are generations of leaders before this, 
both sides of the aisle, that haven't been aggressive enough, 
as he testified.
    However, President Trump was just in Saudi Arabia. 
President Trump was talking about extremism and the need to 
band together to do it. Yet there is no report that he brought 
this issue up in the course of that.
    What is the danger in not bringing this up, particularly at 
that level, particularly under that thing?
    Mr. Weinberg. Yes. So this is, this is, this is the 
challenge is that the President almost never raises the issue. 
This was the case with President George W. Bush, this was the 
case with President Obama. This was the--appears to be the case 
with President Trump. Which is part of why the strategic 
dialogue was inaugurated between the U.S. and Saudi Arabia 
under the Bush administration so that senior officials could 
still raise priority concerns when it didn't rise to a level of 
the Commander-in-Chief as their number one, or two, or three 
priority but still needed to be addressed because of U.S. 
interests.
    But that having been said, that is not an excuse for the 
President not to address it. It is not an excuse for the 
President not to direct cabinet members to do so as well.
    President Trump, when he participated in the inauguration 
of a global center for combating extremist ideology in Saudi, 
while he was in Saudi Arabia--which by the way was in the works 
for 2 years and then they repackaged it to be a deliverable 
during this summit--he predicted it would make history.
    Reflecting on his visit to the Kingdom several weeks later, 
he urged all nations to stop teaching people to kill other 
people, stop filling their minds with hate and intolerance. And 
he said he would not name other countries besides Qatar.
    Now, I actually have an article draft forthcoming which 
explains why Qatar's record on counterterrorism issues is 
actually worse than all of its other neighbors in the Gulf 
monarchies. But that having been said, the books need to be 
addressed directly, with knowledge, on a regular basis with 
current information about the current school year, or else it 
is not going to have any impact with the Saudi Government. 
Otherwise, the Saudi Government is going to keep doing what it 
is doing, which is reprinting these books year after year with 
incitement, and indoctrinating, you know, at least several more 
years of students with this problematic information.
    Mr. Johnston. May I correct the record on something? This 
report was in fact--I briefed the Saudis in Riyadh on this 
report. It was sent over through diplomatic channels as well. 
And out of that came one ray of hope.
    We worked for several years on one of the recommendations 
which was to bring Saudi educators together with American 
educators to deal with the problem of bias and intolerance in 
national education systems. Out of this came a series of 
recommendations to their government, and our own, but to their 
government which I delivered to their Minister of Education.
    One of the things I feel is so important, and it hasn't 
been mentioned here, but far more important than these 
textbooks, far more important is the teacher training. And we 
have opportunities now to be able to go over there and in the 
context of this national plan for educational reform, which was 
crafted mostly by McKinsey & Company, it is a dynamite plan, 
and if they fully implement it it will actually leapfrog some 
of our own habits. But I think there the door is open that we 
could go and help them implement this and particularly get at 
the teacher training, which is, as I say, far more important.
    Mr. Keating. I yield back.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Perry.
    Mr. Perry. Thanks, Mr. Chairman.
    Mr. Johnston, Dr. Johnston, I understand one of the 
problems for the United States is how the actions, the 
statements versus actions coming from Saudi Arabia are 
determined. And I indeed asked the Secretary about the metrics 
to determine efficacy of the Saudi's actions and how we are 
measuring their progress.
    I will tell you now--well, the man's been on the job for 4 
or 5 months, right, so we have to give him some leeway--but I 
didn't get a lot of confidence that anything meaningful was 
there. And I actually wonder, some of the officials who may be 
determining whether what the efficacy is, literally that might 
be, I hate to say it, but so to speak working for the other 
side.
    So, in your work with the, the ICRD how would you 
characterize the metrics we use and who is determining? Is it, 
it is appropriate or is that problematic that--that needs to be 
addressed? And where is that addressed?
    Mr. Johnston. No, I, I think one of the metrics is the 
baseline that we established here back in 2011. To be sure, we 
haven't looked at those books in 5 years. But the U.S. 
Commission on International Religious Freedom did several years 
ago. We provided them the baseline.
    They determined that further reform was taking place. And 
in this year's annual report they even talk about a visit there 
in February of this year where they determined that more reform 
was taking place. So this is a metric.
    We are going to be looking very hard at it starting in 
another month on the high school grades. That is where most of 
the onerous content exists.
    And one of the other things in terms about why this is so 
slow is they took a full year to field test their revisions to 
the 10th grade, which was, as far as we were concerned, was the 
one grade where it was the worst. And they did those revisions. 
I don't know what has come of that. We will find out. But they 
did take a full year to test it.
    And the other thing we have to remember is that a lot of 
this is getting in on religious grounds. And some of that is 
pretty----
    Mr. Perry. But I think they use that. And good for them, I 
suppose.
    Mr. Johnston. Sometimes yes. Yes.
    Mr. Perry. But it is an Achilles heel for the United 
States. And we can't allow that to be used against us, 
especially for what many consider to be seditious activity.
    And I also would question what progress means or what, you 
know, reforms are taking place at what level. I mean, reform, 
you know, they might change one word in that sentence and of 
course they reformed the sentence, I guess in this classic, 
very strict constructionist sense. But from the greater sense 
and the spirit of it, it is not getting the job done and it is 
not getting done quickly enough for us.
    And what they do in their country, quite honestly and quite 
frankly from my opinion, that is their business, but what they 
do in our country is our business.
    Mr. Johnston. Yes. No, your points are very valid.
    One thing I would say is in addition to eliminating 
negative content, one of the things we have found, and we just 
took a quick glance, there is the addition of very positive 
content that sort of works in the other direction.
    I don't know to what extent they are constrained by this 
needing to keep their religious establishment on board, because 
that is where they get their, their authority from is from the 
religious establishment. That is part of the package. So it is 
a difficult walk that they are making. The people that I have 
worked with I am 1,000 percent convinced are very sincere. And, 
in fact, one of them----
    Mr. Perry. With the chairman's indulgence, I agree, in 
their country it is inexorably linked since they came to power, 
the House of Saud. And I get all that and why the need to keep, 
to do all the things they need to do. I don't agree with it but 
I understand it.
    However, in this country none of it is appropriate, none of 
it is appropriate and we should take action.
    Thank you, Mr. Chairman.
    Mr. Poe. I thank the gentleman.
    Congressman Wolf, I have a question for you first and then 
I will let you make a comment because I know you want to keep, 
you want to talk about the last question.
    ISIS used Saudi Arabian textbooks up until 2015. That was 2 
years ago. And now they use their own textbooks. Would you like 
to comment on where ISIS gets--got their textbooks to begin 
with?
    Mr. Wolf. Well, you are right. In the New York Times piece 
they say, ``In a huge embarrassment to the Saudi authorities, 
the Islamic State adopted official Saudi textbooks for its 
schools until the extremist group could publish its own 
textbooks in 2015.''
    Secondly, when I was in 2 years ago we went up into the 
Nineveh Plains. We went into meetings with all the different 
people. At every meeting I said, Tell me, who is helping the 
Saudis--rather, who is helping ISIS? And every meeting, every 
meeting two came up, some three, but two came up: The Saudis, 
not always the Saudi Government but Saudi individuals, and he 
sort of alluded to the renegade guy; secondly, Qatar. They were 
aiding and abetting ISIS. And there was another country, 
Turkey, who was for the longest period of time was allowing 
people, they go to Istanbul, they call a telephone number, they 
go south and they join.
    They may have changed. But don't forget, 15 of the 19 
hijackers were from Saudi Arabia. Bin Laden was from Saudi 
Arabia. The number of people from my area who were killed in 
the attack on the Pentagon, the guys who did it, Saudi Arabia.
    And so I think what this committee has done today with the 
hearing, the textbooks are important, but all these issues, and 
you push and you push and you push. And I urge you to meet with 
the new ambassador, and I urge you to sit down with him or her, 
whoever it is, and pressure them, and the new religious freedom 
ambassador. I think you may have started something here.
    And the real danger is you even recall last year--I read 
the 28 pages--you remember last year the issue came up, the 
Saudis hired law firms and PR firms in this town to do 
everything. Fortunately the Congress, to its good credit, 
passed it and was not influenced. But you know what is going 
on, so by this hearing you can cover all the textbooks are 
important but terrorism is important. All these things are 
very, very important. And, hopefully, this can be the genesis 
if you guys, men and women, continue to really make a 
difference and stop what Saudi Arabia has been doing for a long 
period of time.
    Mr. Poe. Thank you. And the ranking member and I will 
request a meeting with the Ambassador and we will go from 
there. Maybe have a hearing in the future on Qatar, have all of 
you back.
    And I want to have one last question for all four of you. 
Since we are talking about textbooks and schools, how would you 
rank the--at this time--the goal of changing the textbooks so 
that they don't preach hate, intolerance, and violence? And it 
is real simple, it is not pass or fail, it is A, B, C, D, or F.
    You understand the question, Ms. Shea? How would you rank 
what Saudi Arabia is doing right now?
    Ms. Shea. F.
    Mr. Poe. All right. Dr. Weinberg?
    Mr. Weinberg. F with credit for effort.
    Mr. Poe. F with credit for effort. Okay.
    Congressman Wolf?
    Mr. Wolf. F plus instead of F.
    Mr. Poe. Dr. Johnston?
    Mr. Johnston. I would give it a D.
    And one of the things I would point out is that as long as 
we are, you know, buying 150 billion--selling $150 billion 
worth of arms to the Saudis, they are not going to pay a whole 
lot of attention to western criticism. When you couple that 
reality with the line they are walking with the religious 
establishment, I think that they are making as much progress as 
one could hope for at this point in time.
    They need to do a lot better, but there is, there is 
sincere desire to do better on their part, the government's 
part. I don't know about the religious.
    Mr. Poe. And without belaboring the point, if we take Ms. 
Shea's recommendation, we tie defense contracts to Saudi Arabia 
with the repairing of their textbooks, that may get somebody's 
attention. I don't know. We will see.
    Anyway, I want to thank all of you for being here. I want 
to thank all of the people in the audience for being here as 
well.
    And this subcommittee is adjourned.
    [Whereupon, at 3:56 p.m., the subcommittee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
